<html>
<title> - METH REVISITED: REVIEW OF STATE AND FEDERAL EFFORTS TO SOLVE THE DOMESTIC METHAMPHETAMINE PRODUCTION RESURGENCE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





   METH REVISITED: REVIEW OF STATE AND FEDERAL EFFORTS TO SOLVE THE 
             DOMESTIC METHAMPHETAMINE PRODUCTION RESURGENCE

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON HEALTH CARE, DISTRICT OF
               COLUMBIA, CENSUS AND THE NATIONAL ARCHIVES

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 24, 2012

                               __________

                           Serial No. 112-189

                               __________

Printed for the use of the Committee on Oversight and Government Reform





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

76-637 PDF               WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

   Subcommittee on Health Care, District of Columbia, Census and the 
                           National Archives

                  TREY GOWDY, South Carolina, Chairman
PAUL A. GOSAR, Arizona, Vice         DANNY K. DAVIS, Illinois, Ranking 
    Chairman                             Minority Member
DAN BURTON, Indiana                  ELEANOR HOLMES NORTON, District of 
JOHN L. MICA, Florida                    Columbia
PATRICK T. McHENRY, North Carolina   WM. LACY CLAY, Missouri
SCOTT DesJARLAIS, Tennessee          CHRISTOPHER S. MURPHY, Connecticut
JOE WALSH, Illinois















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 24, 2012....................................     1

                               WITNESSES

The Honorable R. Gil Kerlikowske, Director, Office of National 
  Drug Control Policy, Executive Office of The President
    Oral Statement...............................................     4
    Written Statement............................................     6
Mr. Ronald Brooks, Director, Northern California High Intensity 
  Drug Trafficking Area (HIDTA), and President, National Narcotic 
  Officers' Associations' Coalition (NNOAC)
    Oral Statement...............................................    24
    Written Statement............................................    27
Mr. Jason Grellner, Detective Sergeant, Franklin County Narcotics 
  Enforcement Unit, State of Missouri, and President, Missouri 
  Narcotic Officers Association (MNOA)
    Oral Statement...............................................    36
    Written Statement............................................    38
Mr. Donald ``Max'' Dorsey, II, Lieutenant/Supervisory Special 
  Agent, South Carolina Law Enforcement Division (SLED), State of 
  South Carolina
    Oral Statement...............................................    52
    Written Statement............................................    54
Mr. Rob Bovett, District Attorney, Lincoln County, State of 
  Oregon
    Oral Statement...............................................    65
    Written Statement............................................    67
Mr. Marshall Fisher, Director, Mississippi Bureau of Narcotics 
  (MBN), State of Mississippi
    Oral Statement...............................................    74
    Written Statement............................................    76

                                APPENDIX

Responses to questions from Donald ``Max'' Dorsey, II, 
  Lieutenant, South Carolina Law Enforcement Division............    93
Map of the total amount of Meth Labs in South Carolina from July 
  1, 2011 to August 31, 2012.....................................    99
Letters sent to The Honorable Trey Gowdy, Chairman, Subcommittee 
  on Health Care, District of Columbia, Census, and the National 
  Archives from:
Mr. Ronald E. Brooks, President, National Narcotic Officers' 
  Associations' Coalition (NNOAC)................................   101
Mr. Marshall Fisher, Director, Mississippi Bureau of Narcotics...   104
Detective Sgt. Jason J. Grellner, President, Missouri Narcotics 
  Officers Association...........................................   107
Mr. Rob Bovett, District Attorney, Lincoln County, Oregon........   112
Mr. Jim Henderson, Director, The Alabama Law Enforcement Advocacy 
  Group..........................................................   115
Mr. Joe Williams, Director of the Appalachia HIDTA on 
  Pseudoephedrine Controls to Reduce Methamphetamine Labs........   117
Mr. John C. Killorin, Director, Atlanta HIDTA....................   118
Mr. John P. Walsh, Sheriff, Butte Silver Bow Law Enforcement 
  Dept...........................................................   120
Mr. William T. Fernandez, Director, Central Florida HIDTA........   121
Mr. William Ruzzamenti, Director, Central Valley California HIDTA   122
Mr. Bob Carder, Drug Task Force Supervisor, District Three Drug 
  and Violent Crimes Task Force, Oklahoma........................   124
Sergeant Wayne H. Stinnett, Claremore Police Department, 
  Investigations Division, Oklahoma..............................   126
Mr. Mike Connelly, Fire Chief, Evansville Fire Dept, Indiana.....   128
Mr. Michael McDaniel, Director, Houston HIDTA....................   129
Mr. Anthony Soto, Executive Director, Gulf Coast HIDTA...........   130
Mr. Byron Smoot, President, Kentucky Narcotic Officers' 
  Association....................................................   131
Mr. Gary Ashenfelter, Training Director, Indiana Drug Enforcement 
  Association....................................................   134
Mr. Abraham L. Azzam, Executive Director, Michigan HIDTA.........   135
Mr. David Barton, Director, Midwest HIDTA........................   136
Mr. Edward M. Polachek, Director, Milwaukee HIDTA................   138
Letter to Mr. Marshall Fisher, Director , Mississippi Bureau of 
  Narcotics from Mr. David J. Dzielak, Ph.D., Executive Director, 
  State of Mississippi, Office of the Governor, Division of 
  Medicaid, regarding any costs associated with the 
  pseudoephedrine prescription law...............................   140
Mr. W. Dewayne Richardson, District Attorney, 4th District of MS.   141
Statement submitted by Mr. Robert I.L. Morrison, Executive 
  Director, National Association of State Alcohol and Drug Abuse 
  Directors (NASADAD)............................................   142
Mr. William I. Martin, Director, National HIDTA Assistance Center   145
Ms. Holly E. Dye, Founder and Executive Director, National Drug 
  Endangered Children Training and Advocacy Center, Inc., Written 
  Statement......................................................   146
Mr. L. Kent Bitsko, Director, Nevada HIDTA.......................   150
Mr. J.T. Fallon, Executive Director, New England HIDTA...........   151
Mr. Chris Gibson, Director, Oregon HIDTA.........................   152
Ms. Karen L. Hess, Drug Task Force Coordinator, District 
  Attorneys Council, Oklahoma....................................   154
Mr. Derek Siegle, Executive Director, Ohio HIDTA.................   155
Mr. Edward B. Williams, Director, North Florida HIDTA............   156
Mr. Lance Sumpter, Director, North Texas, HIDTA..................   158
A message from the New Jersey Narcotic Enforcement Officers 
  Association....................................................   159
Mr. Phillip Little, Training Director, NC Narcotic Enforcement 
  Officers Asso..................................................   161
Mr. Jeremiah A. Daley, Executive Director, Philadelphia HIDTA....   163
Mr. Jose M. Alvarez, Director, Puerto Rico/U.S. Virgin Islands 
  HIDTA..........................................................   165
Mr. Thomas N. Farmer, Director, Tennessee Methamphetamine and 
  Pharmaceutical Task Force......................................   166
Mr. Tony Garcia, Regional Director, Southwest Border HIDTA-South 
  Texas Region...................................................   168
Mr. Ernesto Ortiz, Regional Director, Southwest Border HIDTA-New 
  Mexico Region..................................................   169
Ms. Laura Hudson, Executive Director, South Carolina Crime 
  Victims' Council...............................................   171
Mr. Kean McAdam, Director, California Border Alliance Group, 
  Southwest Border HIDTA.........................................   173
Sergeant Christian W. Gallagher, Terre Haute Police Department...   174

 
   METH REVISITED: REVIEW OF STATE AND FEDERAL EFFORTS TO SOLVE THE 
             DOMESTIC METHAMPHETAMINE PRODUCTION RESURGENCE

                              ----------                              


                         Tuesday, July 24, 2012

                  House of Representatives,
Subcommittee on Health Care, District of Columbia, 
                 Census, and the National Archives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 9:30 a.m., in 
Room 2203, Rayburn House Office Building, Hon. Trey Gowdy 
[chairman of the subcommittee] presiding.
    Present: Representatives Gowdy, Mica, DesJarlais, Davis, 
Norton, Clay and Murphy.
    Staff Present: Will L. Boyington, Staff Assistant; Molly 
Boyl, Parliamentarian; Linda Good, Chief Clerk; Mark D. Marin, 
Director of Oversight; Christine Martin, Counsel; John A. 
Zadrozny, Counsel; Jaron Bourke, Minority Director of 
Administration; Yvette Cravins, Minority Counsel; and Adam 
Koshkin, Minority Staff Assistant.
    Mr. Gowdy. Good morning, welcome to everyone.
    This is a hearing entitled, ``Meth Revisited: Review of 
State and Federal Efforts to Solve the Domestic Methamphetamine 
Production Resurgence.'' The committee will come to order. I 
want to thank you all of our witnesses. I think we have two 
panels. I will recognize myself for purposes of making an 
opening statement and then the distinguished gentlemen from 
Illinois, Mr. Davis.
    Again, I wanted to welcome our witnesses and thank them for 
lending us their expertise and perspective. I want to extend a 
personal greeting to my long-time friend, Max Dorsey, wherever 
he is. Max and I worked together. He is still a law enforcement 
officer so he is still on the side of the angels, but I was a 
prosecutor, way back when.
    And, Max, it is wonderful to see you.
    I know the witnesses are at the ready with statistics on 
methamphetamine and the problems permeating our country. When I 
think of methamphetamine, my mind doesn't go to statistics. It 
doesn't go to a debate between pharmaceutical companies and law 
enforcement. It goes to a couple named Ann and Ray Emery in the 
Drayton community in Spartanburg County, South Carolina. Ann 
and Ray Emery were a beautiful couple. They were active in 
their community, active in their churches, deeply in love with 
one another, and full of life.
    They had a next-door neighbor named Andres Torres. Andres 
Torres was a troubled person with a long criminal history, and 
an addiction to methamphetamine. He knocked on their door one 
afternoon and said he needed a ride to the grocery store to get 
some food, so Ray Emery, being the decent, kind, human being 
that he was, stopped what he was doing, and took Andres Torres 
to the store. And he even did one better than that; he bought 
the groceries for Andres Torres. That was the kind of person 
Ray Emery was, kind, selfless, always ready to help a neighbor, 
even a neighbor as troubled as Andres Torres.
    About a week later, Andres Torres came back to the Emery 
home, but this time, he didn't come in the afternoon. He came 
in the middle of the night under cover of darkness. He crept in 
through a side door. He walked into Ann and Ray Emery's bedroom 
and began to bludgeon Ray Emery with a hammer. Nineteen times 
he raised the hammer and struck the face or the head of another 
human being. Ray Emery's face was unrecognizable as a human 
face in the crime scene photos. He is laying there in a pool of 
blood on his bed with his skull fractured and his left arm is 
reaching out toward his wife. His body is on the floor. She too 
had been bludgeoned with a hammer, both of her eyeballs were 
absent. The bridge from her mouth was down into her neck, 
having been beaten there by a hammer, and she was raped 
postmortem.
    So statistics are fine. They certainly have their place. If 
you want to see the carnage of methamphetamine, I invite you to 
come look at the crime scene photos with me from the State of 
South Carolina v. Andres Torres.
    Methamphetamine requires ephedrine and pseudoephedrine as 
precursors. These two drugs are commonly found in medicines 
that are also extremely beneficial to law-abiding citizens. It 
is interesting at least for me to note that I believe that 
ephedrine and pseudoephedrine were both part of the Federal 
schedule prior to 1976, and methamphetamine, at least to my 
knowledge, was nonexistent prior to then.
    I don't know what the answer is. On the one hand, we know 
that those who seek to break existing laws, whether it be 
controlled substances laws or guidelines for the sale of 
ephedrine or pseudoephedrine, are adept at getting around 
whatever barriers we impose. On the other hand, it seems that 
99 percent of our fellow citizens who follow the law and act 
lawfully are continually asked to change their behavior in an 
effort to combat those who cannot or will not conform to the 
law.
    So I look forward to hearing from our witnesses. 
Methamphetamine is an epidemic. You don't have to be a law 
enforcement officer or a prosecutor to know that. If the 
consequences of using and abusing this drug were just confined 
to the drug addicts themselves, it would be calamitous enough, 
but the consequences are far reaching, even ending the lives of 
beautiful couples who happen to live next door.
    So, with that, I would recognize the gentleman from 
Illinois the ranking member, Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman.
    And I thank you for holding today's hearing. Illicit drug 
use is one of the most challenging difficulties facing our 
society. It destroys families, individuals, careers, dreams, 
hopes, and tears at the very fabric of our basic communities. 
The damaging effects of meth that began in the Western States 
have now infiltrated my State of Illinois, and my hometown of 
Chicago.
    According to the United States Department of Justice, meth 
is the primary drug threat to central and southern Illinois but 
is increasing in the Chicago area. The State recently ranked 
fourth in meth-related arrests. Estimates place the cost of the 
meth epidemic to Illinois alone at about $2 billion per year, 
when crime, loss of productivity, incarcerations, and the 
impact on families and children are taken into account. These 
are indeed stunning numbers. Our response in large has been to 
lock these folks up. The United States leads the world in the 
number of incarcerated people. There are some 2 million 
Americans in jail or prison. The United States incarcerates 
more people for drug offenses than any other country.
    With an estimated 6.8 million Americans struggling with 
some sort of drug dependence, our prison populations will burst 
at the seams if we continue with this course. I submit that 
drug treatment can and should be fully incorporated into the 
criminal justice system. Treatment services for addicts on the 
street and even those incarcerated must become more of a 
priority. Treatment must become a part of probation, parole, 
and drug code participation. By working together, substance 
abuse treatment providers and criminal justice system officials 
can optimize their resources.
    Mr. Chairman, we want individuals to become productive 
citizens and return to activities that benefit society.
    A substance and mental health services administration study 
found that treatment decreases arrests for any crime by 64 
percent. After only 1 year, the use of welfare declines by 10.7 
percent, while employment increased 18.7 percent. The numbers 
show it. Treatment can have a defining effect on a person, on a 
community, and on our country.
    Imagine if the dollars spent on incarceration could be put 
to other uses. I am certain that law enforcement officials here 
today encourage treatment as well. They see the same 
individuals withering away time and time again. These people 
could have been something or done something else with their 
lives.
    I applaud our law enforcement officials for coming. I 
respect what it is that you do. You represent the on-the-ground 
methamphetamine fight in our communities and more often than 
not put yourselves in harm's way. The intense battle against 
meth in rural America mirrors the urban fight against crack 
cocaine that dominated urban America in much of the 1990s and 
on into today.
    I look forward to the testimony of our witnesses.
    Mr. Director, it is good to see you again, and I want to 
thank you for spending the day with us in Chicago exploring the 
different facilities and approaches that we have tried to make 
real and implement in our hometown. I thank you for the 
tremendous work that you do and look forward to your testimony 
and that of the other witnesses.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Gowdy. I thank you the gentleman from Illinois.
    Members may have 7 days to submit opening statements and 
extraneous material for the record.
    We now welcome our first panel, The Honorable, Gil 
Kerlikowske, is the director of the Executive Office of the 
President's Office of National Drug Control Policy.
    Sir, welcome.
    Pursuant to committee rules, all witnesses must be sworn in 
before they testify. So I would respectfully ask you to rise 
and raise your right hand.
    Do you solemnly swear or affirm the testimony you are about 
to give will be the truth, the whole truth and nothing but the 
truth?
    Let the record reflect the witness answered in the 
affirmative. Thank you. You may be seated.
    Witnesses typically have 5 minutes for opening statements. 
There should be a panel of lights. If there is not, I will get 
you to rely on your internal clock, and with that, welcome.

                       WITNESS STATEMENTS

         STATEMENT OF THE HONORABLE R. GIL KERLIKOWSKE

    Mr. Kerlikowske. Thank you very much. If my internal clock 
runs a little behind, if you will let me know.
    Thank you, Chairman Gowdy, Ranking Member Davis, and 
members of the subcommittee for the opportunity. Having spent 9 
years as a the chief of police in the Northwest, I am very much 
aware of the significant health and public safety problems that 
result from methamphetamine use.
    Well, the national data indicate the number of current meth 
users in the United States has dropped significantly in the 
past several years. What these data don't capture, of course, 
is the considerable regional and local variations in 
methamphetamine production and use. Meth continues to be a drug 
of significant concern for both the public health and safety of 
many communities throughout this country. And frankly, given 
the regional patterns associated with meth, ONDCP was not as 
forward-thinking in recognizing the problem and proposing 
efforts to deal with it.
    The law enforcement intelligence reporting indicate the 
availability of methamphetamine in general is increasing in 
markets throughout this country. There is evidence of 
significant declines in price, and significant increases in 
purity of the drug. Mexico remains the primary source of 
domestic meth supplies. From 2008 to 2011, the number of meth 
seizures along the border increased nearly 400 percent. 
Restrictions on precursor chemicals by the Mexican government 
had some initial success, but they appear--do not appear to be 
as effective in the long run. Drug trafficking organizations 
have found ways to work around them.
    The increase in the supply of Mexican methamphetamine is 
paralleled by a growth in domestic meth production over the 
past several years. U.S. meth lab seizures more than doubled 
between 2007 and 2010, and these labs pose a major threat to 
public safety and the environment, as well as a significant 
burden on already busy law enforcement and first responders.
    And the growth in domestic production is attributable to 
increased numbers of small meth labs and the shift in lab size 
is largely attributable to restrictions placed on precursor 
chemicals that made it difficult to obtain large quantities of 
the precursors that fueled the super labs.
    However, as in Mexico, producers here in this country, 
found ways to circumvent the restrictions. Individual or 
smaller scale criminal groups of organized smurfing operations, 
where individual purchasers acquire illegal quantities of the 
chemicals through multiple purchases from several retail 
locations.
    While the administration supports several important efforts 
to combat methamphetamine production and trafficking, and to 
prevent and treat the drug as directed by Congress, our 
National Youth Anti-drug Media Campaign targets those areas of 
the country hardest hit by meth and delivers messages conveying 
the risks of meth use and the importance of treatment and the 
importance of recovery. And the administration is committed to 
working with the criminal justice system to reduce this 
problem.
    Our HIDTA, our High Intensity Drug Trafficking Area 
programs, which are supported by ONDCP are very much focused on 
this. The National Methamphetamine and Pharmaceuticals 
Initiative is a HIDTA program working on the problem. Current 
Federal restrictions on pseudoephedrine as a result of 
Congress' Combat Methamphetamine Enforcement Act along with a 
majority of States with controls in place were originally 
intended to cut down on production.
    However, the restrictions are showing some diminishing 
effectiveness. In an effort to address the resurging threats 
some States implemented electronic sales monitoring systems for 
pseudoephedrine. However, there is growing evidence that these 
electronic efforts have been unable to contain a resurgence of 
the small-scale meth production.
    Domestic producers can--domestic producers can and have 
been circumventing the system by simply employing large numbers 
of buyers with multiple fake IDs. Another prescriber control is 
to reduce pseudoephedrine availability through scheduling. And 
in 2006, Oregon made pseudoephedrine a schedule III controlled 
substance, prescription only. Methamphetamine laboratories 
seizures declined dramatically, from 190 to 11, from 2005 to 
2011. Mississippi has had similar excellent responses, although 
their law has only been in place since July 1, 2010. The 
administration is dedicated to working closely with the Members 
of Congress on this problem. We have to focus on these 
strategies, and I look forward to answering any questions.
    [The prepared statement of Mr. Kerlikowske follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Gowdy. Thank you, Director.
    The chair would now recognize Dr. DesJarlais for his 
questions.
    Mr. DesJarlais. Good morning, and thank you for being here.
    Let's just kind of try to go through a bunch of questions 
because we have limited time. Does the ONDCP have an official 
position with respect to the best way to solve domestic meth 
production problems?
    Mr. Kerlikowske. We have a position as far as it has to be 
holistic. We have to work on getting the message to these young 
people, particularly in about that 20- or 21-year age limit 
where oftentimes they begin to be involved with 
methamphetamine. We know that treatment works for those people 
that can get back into being productive citizens, and we know 
enforcement can work, not only working with countries to ban 
precursors--and I will be traveling to China in September. 
Mexico has dismantled a number of laboratories, but they need 
additional assistance from the United States. And lastly, 
working with local and domestic law enforcement here in the 
United States, we have seen some real progress, particularly 
when I mentioned Mississippi and Oregon.
    Mr. DesJarlais. Okay, I would like to talk more about those 
States as opposed to States that have instituted other point-
of-sale restrictions or tracking systems. What in your 
experience, is working best? Let's take Oregon and Mississippi, 
compare them to States like Tennessee who has tracking methods. 
What are you finding? What is the data showing----
    Mr. Kerlikowske. Well, the data is showing that the number 
of lab incidences has been reduced in those two States in which 
the precursor chemical has been made a prescription only. And 
you have some experts that--behind me--that really know their 
particular State data, very, very well.
    But I will tell you from my law enforcement hat, from many 
years, law enforcement has had a reduction in resources, and 
giving more leads and more information isn't quite as important 
as preventing the problem. And it seems like Oregon and 
Mississippi show great promise in preventing the problem.
    Mr. DesJarlais. I think initially when Oregon was probably 
first on board to do that, they did not have the same number of 
border States and for example, Tennessee has seven. Now 
Mississippi, I think, did have more border States, and they 
showed similar results?
    Mr. Kerlikowske. They have shown a decrease, and I believe 
the director of the Mississippi narcotics unit is on the next 
panel.
    I would tell you that what I have seen in Oregon, in 
particular in the Portland area, is that it is so easy to cross 
the bridge into my own State of Washington and purchase the 
precursors, and that is where oftentimes we see part of the 
problem, so I think that there is an important----
    Mr. DesJarlais. Okay. Can the same reduction be shown in 
the States that have more sophisticated tracking systems or 
electronic logbooks? Are they showing a decrease, or is it 
steady or on the incline or what is happening there?
    Mr. Kerlikowske. So the decrease has been in the super 
labs, the large labs that produce a lot-- a lot of 
methamphetamine. The increases in all of these labs, regardless 
of the State, is in the small use of a pop bottle.
    Mr. DesJarlais. Shake and bake.
    Mr. Kerlikowske. Shake and bake method. And so we are 
seeing that. So we are not seeing that quantity, but we are 
seeing these numbers. And of course, even when theses things 
are discarded on the highways or in playgrounds or anything 
else, they cause significant problems. They also drain public 
safety resources because of the hazardous materials responders 
that have to come out.
    Mr. DesJarlais. Let me ask this because I don't know the 
answer, but as a primary care physician for 20 years who has 
prescribed a lot of cold medicines, does--I know the answer to 
this. Does Sudafed have any curative factors?
    Mr. Kerlikowske. I am probably not at all qualified to give 
you that answer, but I know there are plenty of medications for 
runny noses on the market that don't contain pseudoephedrine.
    Mr. DesJarlais. What kind of kickback have they gotten in 
those two States from patients? Has it caused an increase in 
doctor visits and cost in terms of health care if they cannot 
get Sudafed over the counter and have to have a prescription?
    Mr. Kerlikowske. I am only familiar with Oregon, and one, 
it did not increase Medicaid costs. Number two, because it is a 
schedule III, that prescription can be called in, I mean, if 
you really need it.
    Mr. DesJarlais. Right.
    Mr. Kerlikowske. That can be sent telephonically to the 
pharmacy to be filled.
    Mr. DesJarlais. So if I have a patient that I know has 
severe allergies, runny nose, I don't have to make them come in 
for a visit. I can call in that prescription or give them a 
reasonable amount with the refills for 6 months or more, so it 
doesn't necessarily mean they have to come to the doctor?
    Mr. Kerlikowske. I believe so.
    Mr. DesJarlais. Okay. I don't have a timer in front of me, 
Mr. Chairman, so you will have to--I see I am on yellow. 
Quickly, on the cleanup portion, you know, a lot of States, 
including Tennessee, ran out of funds, just literally 
overnight, just flipped a switch, and they were out of funds. 
Is there anything on the horizon to help these States in terms 
of dealing with meth cleanup? You talked about the shake and 
bake bottles being thrown in the ditch. If they don't have the 
money to clean them up, I am not saying law enforcement looks 
the other way, but these are dangerous chemicals to deal with, 
and what can we look forward to in terms of help and support in 
light of those funds running out?
    Mr. Kerlikowske. There is the request in for funding to 
replenish, and I think that--and it probably is not enough, 
given the number of small labs that are being seized, but there 
is some additional money there for them.
    Mr. DesJarlais. Okay, I know my time is expired. We will 
talk maybe in the next panel about some of the solutions. I 
know in Tennessee, they went to multicounty storage containers 
and drastically reduced the cost of the meth cleanup by, gosh, 
it went from, say, $10,000, to $2,500 for a cleanup with these 
storage containers. So we will talk more about that.
    And thank you, Mr. Chairman, I yield back.
    Mr. Gowdy. Thank the gentleman from Tennessee.
    The chair will not recognize the gentleman from Illinois, 
Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Mr. Director, we know that the use of meth dropped 
significantly during 2007 and 2008, as States found ways to 
limit the supply and make it more difficult for individuals to 
acquire these key ingredients that were used to produce the 
concoction.
    But now we see that there is a rise and increase again. 
Does that mean that people are finding ways to get around these 
restrictions and in terms of purchasing the ingredients or 
storing them or having them? If so, how are they doing that?
    Mr. Kerlikowske. You are absolutely right, Congressman.
    When Congress acted with the Combat Meth Act and put the 
pseudoephedrine behind the counter, requiring the logbook, that 
did have an impact. At the same time, the government of Mexico 
banned the precursor chemicals.
    Since then, two things have happened. One, the precursor 
chemicals are shipped in, either under forged documents into 
the country of Mexico, or they are shipped into places like 
Guatemala and then come up into the laboratories of Mexico. And 
then the methamphetamine makes its way here.
    The second thing is that the smurfing that I talked about, 
in which large numbers of people with multiple fake identities 
can go from store to store and purchase the maximum amount of 
pseudoephedrine possible. And that is a way of getting around 
the Combat Meth Act and the logbook.
    Mr. Davis. Are the sellers of these products required to 
maintain records and perhaps make those available to law 
enforcement officials to try and track what may be going on 
with the dealers?
    Mr. Kerlikowske. They are required to maintain the 
logbooks, and they are required to provide that logbook to law 
enforcement. The issue that my colleagues always talk about, 
though, of course, is that they would much rather see the crime 
or the incident prevented and the methamphetamine not made 
rather than devote law enforcement resources to try and track 
down information on what may often be a fake ID.
    Mr. Davis. While I am a strong proponent of law enforcement 
techniques and approaches to try and really get a handle and 
keep the ingredients away or prevent individuals from having 
the meth to distribute, I guess I am also a strong proponent of 
treatment because, well, I just grew up a very simple way where 
we were told that an ounce of prevention is worth much more 
than a pound of cure. And it would seem to me that if we could 
provide treatment, and we know that treatment, according to all 
of the data that we have looked at, does in fact have a 
significant impact, how do we balance the law enforcement with 
the treatment in terms of resources and activities to make this 
the most comprehensive approach that we can?
    Mr. Kerlikowske. Congressman, I couldn't agree with you 
more, and I will be very surprised if any of my former law 
enforcement colleagues that will be on the next panel would 
differ with you in the least. Law enforcement has been 
absolutely joined at the hip on both prevention and treatment 
programs, not only for methamphetamine but for other drugs. We 
have over 2,600 drug courts, and I know you are very familiar 
with them, having told me about the Chicago experience; 2,600 
drug courts, many of whom deal with clients who in fact are 
addicted to methamphetamine. And I can tell you that the myth 
had always been that once someone was addicted to 
methamphetamine, they could never be cured. In my travels for 
this administration in 3 years, I have met literally hundreds 
of people who were severely addicted to meth and included some 
pretty drastic problems, dental problems, health problems, et 
cetera, that are back taking care of their families, back 
paying taxes, back being productive citizens. So we need to 
make sure that the program that we have is comprehensive.
    Mr. Davis. Thank you very much, Mr. Chairman, and I yield 
back.
    Mr. Gowdy. I thank the gentleman from Illinois.
    The chair would now recognize the gentleman from Florida, 
Mr. Mica.
    Mr. Mica. Mr. Chairman, first of all, thank you for 
conducting this hearing. Unfortunately, part of the problem of 
the situation I think we are in is Congress, 4 years the other 
side of the aisle was in charge, and I don't recall a single 
hearing. I served as chair of the Criminal Justice Drug Policy 
Subcommittee from 1998 to 2000, been on the committee all my 
time, and I am trying to remember if there was even a single 
hearing relating to--well, there might have been some promotion 
of legalization of narcotics, but that might have been the only 
thing. So part of the problem of finding ourselves in this 
situation is that Congress wasn't doing its job.
    Having been involved in trying to tackle this issue in the 
past, this is sort of catchup for me, and I have some 
questions. I think first you have to go after the source. If 
you are telling me Mexico is still the source and it continues 
to be the primary source, that is correct?
    Mr. Kerlikowske. Correct.
    Mr. Mica. Precursors. I helped with Denny Hastert to 
develop a Plan Colombia, which we had basically the same 
situation we have in Mexico. Now, do we have a plan Mexico? 
Does the administration have a plan to deal, I mean, almost all 
of the narcotics and violence and precursors are coming out of 
Mexico, not to mention the wanton slaughter of tens of 
thousands of Mexican innocent citizens. Do we have a plan?
    Mr. Kerlikowske. We do have a plan, and I believe that 
President Calderon could not have been more courageous during 
his five and a half years.
    Mr. Mica. Okay, there is a new president now, but he may 
have been courageous, but actually, you just testified that 
this stuff is still coming in, and they are subverting the 
process.
    Mr. Kerlikowske. Well, one, he took on banning those 
precursors, and they were pretty effective, but the drug 
traffickers have figured out two things.
    Mr. Mica. But then you go to plan B. Do we have a plan B?
    Mr. Kerlikowske. Sir, the plan B would be to continue the 
increases of seizures along the borders. Mexico has increased 
the number of seizures of their laboratories within the 
government--or within the country, and they are working also to 
tighten their border, their southern border, where chemicals 
come into places like Guatemala and then make their way, the 
precursors, and then make their way----
    Mr. Mica. So the other thing, too, is seizures. I am 
looking at this here, meth at DEA. You go back to 2004, 2005, 
and the Bush administration: 18,000 in 2004. And we are down to 
10,000 seizures. Have we just become more tolerant? We don't--
are you working with DEA to increase the seizures?
    Mr. Kerlikowske. Well, and the seizures are almost all done 
by Customs and Border Protection, as you well know, along the 
border.
    Part of the reduction could also be the fact that we have 
about half of the users in this country that we did.
    Mr. Mica. Well, again, blaming it on the users is 
something, or treatment is another thing.
    Quite frankly, I believe when you get to treatment, you 
have lost the game. It is a--first stop in the precursors to 
put the stuff together. If it is coming through Mexico, we need 
a plan, and plan B, whatever it is. Is the law we passed in 
2004 working? You said it is being subverted.
    You know, we took some stuff off the shelf. We have got--
but do we--does Congress need to look back at this, and I mean, 
I am a zero tolerance guy. I worked with Rudy Giuliani when he 
did that in New York and the residual is still there. You go 
after people, and you have tough enforcement, and you curtail 
the bastards, pardon my French, and stop them. And that is what 
you have got to do in this.
    But when seizures are down, have you--has the 
administration arranged a meeting with the new administration 
yet on the drug issue, do you know?
    Mr. Kerlikowske. President-elect Pina Nieto has not named, 
to my knowledge, any of the people that will be in his cabinet 
to head up the----
    Mr. Mica. Well, I think one of our priorities, and you 
should report back to this committee and Congress, is a 
meeting. This deserves the attention of the President of the 
United States. The slaughter across our borders now, the 
increase in use of methamphetamines, and then it looks like we 
are sleeping at the switch in enforcement, and we don't have a 
plan really to deal with this.
    The last thing, too, the I helped set up the education 
program some years ago. I have no idea of the status of it. I 
have gotten waylaid on transportation issues, but part of it is 
education. Tell me the status of that program.
    Mr. Kerlikowske. The educational program, the National 
Anti-Drug Youth Media Campaign was not funded by Congress last 
year.
    Mr. Mica. Do we have--when we did this, the deal I cut with 
Clinton was that half the money was going to come from the 
private sector or from public broadcasts. We own the air waves, 
and they were supposed to provide some air-wave education. That 
is part of their responsibility under the FCC law to provide.
    Do you have a program with them to provide some of that? We 
have on the air a meth program anti-meth program?
    Mr. Kerlikowske. We still, as required, spend 10 percent of 
that media money on meth. The most effective way----
    Mr. Mica. But I mean getting them. They have the resources 
and the capability and the air waves and an obligation to use 
some of that for public education. Do you have a plan working 
with them now?
    Mr. Kerlikowske. We work with a partnership at drugfree.org 
and others, but we also know some of the most effective methods 
are through social media.
    Mr. Mica. Yeah, well, do we have a plan?
    Mr. Kerlikowske. We do.
    Mr. Mica. Okay, well again, maybe you can provide me with 
some update on it. I think that is very important, and social 
media, too, is I am finding out in the campaign, is very, very 
important, and a new way of getting to possible users and 
people affected by it.
    And if you could share with us--I think this 
administration, this President, you need to be in the face of 
Mexico, and we if we need to go back and change the law, you 
give us the recommendations to update 2004, what other 
resources you need, and we will work with you. Thank you, Mr. 
Chairman.
    Mr. Gowdy. Thank the gentleman from Florida. The chair will 
now recognize himself for 5 minutes of questions.
    Let me start, Director, by thanking you for your previous 
service in law enforcement.
    And I was having a hard time getting my little noggin 
wrapped around--in Judiciary, it is not uncommon to hear some 
of our colleagues call for the legalization of what would now 
be schedule I controlled substances. So to go from calling for 
the legalization, and I am not saying you have. I have never 
heard you say it, but the disconnect between calling for 
legalization of what are now schedule I controlled substances 
to the quasi-criminalization of what are now over-the-counter 
drugs just seems like something of an inconsistency to me. But 
perhaps it is just me.
    Without waving my Fifth Amendment right against 
incrimination, I don't think you can make moonshine without 
sugar, can you?
    Mr. Kerlikowske. I will take your word for this.
    Mr. Gowdy. You can't write demand notes without paper and 
pen. You can't make cocaine base without baking soda, and you 
have to have water for moonshine and baking soda--and crack 
cocaine, and there has never been any conversation about 
criminalizing any of the above.
    So at what point do we say, yes, this is an integral part 
of making something that is illicit or wrong, but the 
inconvenience of criminalizing baking soda or water or pen and 
paper is just a bridge too far for us? We are going to 
concentrate on the 1 percent that is breaking the law, and not 
the 99 percent who do like they are supposed to do.
    Mr. Kerlikowske. I think--I mean, your points are 
excellent. I guess when I talk to my colleagues around the 
country who are in law enforcement, they are all suffering from 
reduced budgets. They have had layoffs. They have had 
reductions in force. They have had, in some cities, increases 
in violence. And going after people with fake IDs who bought 
too much pseudoephedrine over the counter is not going to be on 
their highest list of priorities. And that is a fact.
    Mr. Gowdy. Well, I am not disagreeing with you, but I would 
wonder this: How many of the so-called smurfs have been 
prosecuted for conspiracy? Because it just strikes me that our 
entire criminal justice or penal system is set up to get 
people's attention with incarceration, and one way to get the 
smurf's attention, is to actually wrap them up and a Title 21 
conspiracy count on the Federal side. Do you know how many of 
these so-called smurfs have actually been prosecuted for 
conspiracy?
    Mr. Kerlikowske. I don't know.
    Mr. Gowdy. I want you to put your old hat back on for a 
second and see if my logic is flawed. If you decrease the 
demand or decrease access to ephedrine and pseudoephedrine, you 
could probably fashion an argument because you have seen 
addicts do things that are unspeakable in their quest for 
drugs. I have seen it. I just recalled a story about it.
    What is to say that we won't have an increase in home 
invasions for addicts seeking ephedrine and pseudoephedrine 
from families that have a prescription for it in their quest to 
get it? Have there been any studies showing whether or not the 
criminal element has gone to--because they are very creative--
gone to other routes to get these precursors?
    Mr. Kerlikowske. The only familiarity I have with the 
longer term on that is, again, Oregon, and in talking to law 
enforcement colleagues in that State, and I know you have a 
witness from the State of Oregon, regarding break-ins to homes 
to get the precursor chemicals for meth or stealing 
prescriptions for precursor chemicals for pseudoephedrine has 
not been an issue of concern to them. But I would take their 
testimony with their experience over, certainly, my anecdotal 
information.
    Mr. Gowdy. Is there the prospect or possibility that 
Mexico's production will increase? If you accept that the 
demand for the product will remain the same without drug 
treatment, then what is to say Mexico won't meet that request 
for increased production if it decreases domestically? What is 
to say we won't see an even greater influx of methamphetamine 
from Mexico?
    Mr. Kerlikowske. I think as long as there is that demand 
here in this country, Mexico, those drug cartels, will do their 
very best to try and meet some of that demand. That is why I 
think the prevention information about the dangers of 
methamphetamine, and there are some incredibly, as you know, 
graphic demonstrations of advertising that seem to have made a 
difference in keeping people off methamphetamine. Again, that 
would be the far more important way to do this.
    Mr. Gowdy. Well, my time is up. I will say this about drug 
treatment: We had a drug court in my home county, and the dirty 
little secret about drug court is it wasn't the prosecutors and 
it wasn't the police officers who were opposed to it. It was 
the criminal defense attorneys, because drug court is much more 
difficult to survive under or on than simple probation. So some 
of my colleagues who are opposed to mandatory sentences in all 
forms may have to reconsider when it comes to drug court. 
Because if given the choice between probation, where you just 
wave your hand once every 6 months, and drug court, most 
defense attorneys opt for probation.
    With that, you have a very difficult job, and we wish you 
great success. And we thank you for coming and testifying, and 
again, we thank you for your service in law enforcement as well 
as your service to our country.
    Mr. Kerlikowske. Thank you, Chairman.
    Mr. Gowdy. We will stand at ease for a couple of minutes 
while the next panel comes forward.
    [Recess.]
    Mr. Gowdy. The committee will come to order. It is our 
pleasure to recognize and welcome the second panel of 
witnesses. I will introduce you from your right to left, my 
left to right. I will introduce you en banc and then recognize 
you each for your 5-minute opening statement.
    Mr. Ron Brooks is the director of the Northern California 
High Intensity Drug Trafficking Area and the President of the 
National Narcotics Officers' Associations' Coalition.
    Mr. Jason Grellner--and if I mispronounce anyone's name, 
correct me and forgive me--is a sergeant with the Franklin 
County Missouri Narcotics Enforcement Unit and the president of 
the Missouri Narcotics Officers Association.
    Mr. Max Dorsey a lieutenant with the South Carolina Law 
Enforcement Division in the great State of South Carolina.
    Mr. Rob Bovett is the district attorney for Lincoln County, 
Oregon, and the architect of Oregon's 2005 prescription-only 
law.
    Mr. Marshall Fisher is the executive director of the State 
of Mississippi's, Mississippi Bureau of Narcotics and an 
architect of Mississippi's 2010 prescription-only law.
    Again, pursuant to committee rules, and I always wanted to 
have Max Dorsey under oath so I could ask him some questions, 
and now I will have my chance.
    Mr. Gowdy. So I would ask you if you will please stand and 
raise your right hand.
    Do you solemnly swear or affirm the testimony you are about 
to give will be the truth, the whole truth and nothing but the 
truth.
    Let the record reflect all of the witnesses answered in the 
affirmative.
    Mr. Brooks, we will start with you and recognize you for 
your 5-minute opening statement.

                   STATEMENT OF RONALD BROOKS

    Mr. Brooks. I don't think this is working. Maybe you can 
hear me without it, because I think--okay.
    Mr. Chairman, Ranking Member Davis, members of the 
subcommittee, thank you very much for holding this important 
hearing and for inviting me to represent the 68,000 members of 
the National Narcotics Officers' Associations' Coalition.
    I am a 37-year law enforcement veteran, and I worked with 
methamphetamine investigations since 1980. I am currently the 
director of the Northern California High Intensity Drug 
Trafficking Area.
    Every day, National Narcotic Officers' coalition members 
see firsthand the devastation, lost opportunities, violent 
crime, environmental destruction, and the death that meth use 
brings to our cities and towns. It robs children of their 
parents, young people of their dreams, and our country of the 
bright minds and sound bodies that we must rely upon to remain 
strong as a nation.
    From the earliest days, it was clear that cutting off 
pseudoephedrine would virtually eliminate domestic meth 
manufacturing. When cooks could easily access pseudo at retail 
stores, we saw massive quantities purchased and converted to 
meth. As a result, the number of meth labs ballooned from 7,000 
in 1999 to 18,000 in 2004.
    We were inundated. It was truly an epidemic, and it was 
clear that we needed to make meth more difficult or needed to 
make it much more difficult for meth cookers to get their hands 
on pseudoephedrine. That is when the Congress focussed on the 
issue and passed the Combat Meth Act. One of the primary 
purposes of the Combat Meth Act was to restrict access by meth 
cooks to pseudoephedrine by requiring behind-the-counter 
products storage and recording of purchases in a logbook.
    The facts tell a crystal clear story of what happens when 
we restrict pseudoephedrine. We went from 18,000 incidents in 
2004 to 6,000 incidents in 2007, a drop of more than 65 
percent, due in large part to the Combat Meth Act provisions to 
control pseudo.
    But the CMEA's restrictions eventually led to innovation by 
meth cooks who resorted to smurfing, the practice of purchasing 
small quantities of pseudoephedrine products at several retail 
locations to bring back to a central manufacturing location.
    We often see several people recruited to purchase a small 
number of packages and sell them to middle men who in turn sell 
the packages to the illicit cooks. After the initial steep 
Combat Meth Act decline, because of this smurfing technique, we 
saw a number of lab incidents increase again to 10,000 by 2011.
    The law enforcement situation is much more challenging 
today because of layoffs and budget cuts. We are not equipped 
to deal with the surge in lab incidents the way we did in the 
1990s. The COPS Meth Hot Spots Program used to provide critical 
support to our efforts, but Congress has cut its funding by 70 
percent.
    Unfortunately, the meth situation on the ground is 
alarming. Last year, 5,000 kilograms of meth were seized at the 
U.S./Mexico border, a 400 percent increase compared to 2008, 
and the domestic meth lab production numbers are certainly 
growing across the country.
    There are really two clear lessons in history. The first 
is, controlling pseudoephedrine is the best way to prevent meth 
labs. The second, half measures to control retail 
pseudoephedrine will lead meth cooks to innovate workarounds to 
these obstacles.
    The conclusion my members have drawn is that products 
containing pseudoephedrine should be accessible via 
prescription only on a nationwide basis. The fact is, making 
pseudo available only by prescription significantly reduces the 
number of meth labs in communities.
    My colleagues from Oregon and Mississippi will share clear 
evidence of the success of their prescription-only policies. We 
are talking about major declines in meth labs almost instantly 
from the passage of those laws. The policy works, and it should 
be embraced on a nationwide scale.
    Some will say that tracking retail purposes of 
pseudoephedrine is the solution to the smurfing problem. While 
tracking has a positive impact in some areas, the impact is 
really limited, and it is not proven to reduce labs. Again, the 
facts tell the story. Kentucky was the first State to implement 
a tracking system. Every year since the implementation, the 
number of lab incidents in Kentucky has gone up. Tracking is 
reactive and very labor intensive. Relatively few agencies 
today have the resources to effectively track pseudoephedrine 
and make an impact, a true impact on their meth problem.
    We are encouraged by the recent development of technology 
that has been shown to prevent pseudoephedrine from being 
extracted from pills, which means that illicit cooks could not 
use it to make meth. This would enable products containing 
pseudoephedrine to be sold in front of the counter. Consumer 
convenience and access to legitimate medicine would be 
enhanced, and meth lab incidents would decline. Those 
developments really should be encouraged and explored.
    Mr. Chairman, we have a clear evidence of a policy that can 
save lives and protect communities. We really ought to act now 
before we lose control of this situation. On behalf of the 
dedicated men and women who respond to meth lab incidents every 
single day, the NNOAC strongly encourages Congress to study the 
Oregon and Mississippi examples and to pass a Federal law that 
makes pseudoephedrine products prescription only. And I want to 
thank you for your time. I am happy to answer questions.
    [The prepared statement of Mr. Brooks follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Gowdy. Thank you, Mr. Brooks.
    Mr. Grellner.

                  STATEMENT OF JASON GRELLNER

    Mr. Grellner. Yes, sir. Mr. Chairman, Ranking Member Davis, 
members of the subcommittee, thank you for providing me the 
opportunity to testify before you today.
    I am Detective Sergeant Jason Grellner. I am a task force 
commander of a unit in Franklin County, Missouri, just outside 
of St. Louis. I am also president of the Missouri Narcotics 
Officers Association, and I am here representing the 350 
members who struggle daily to fight methamphetamine 
laboratories.
    Missouri has consistently led the nation for more than a 
decade in clandestine methamphetamine laboratories reporting 
over 27,000 found meth lab incidents since 1994. My task force 
has federally indicted 50 people for smurfing and manufacturing 
meth in just the first 6 months of this year, and we usually 
annually indict 50 people.
    During my 21-year career in law enforcement, I have led 
investigations of over 1,600 meth labs in Franklin County. My 
unit investigates a lab incident on average, once every 3 days. 
I have often seen throughout my career the rippling effects the 
clandestine methamphetamine laboratories have on the elderly 
addicts' families, innocent children, and the public at large.
    Approximately 50 children a year in Franklin County are 
removed from meth lab homes and placed into State custody. Over 
the past 15 years, I have earned the name bogeyman, given the 
number of times that I have taken children away from their 
family due to methamphetamine labs.
    The business of methamphetamine lab production is both 
painful and costly. At nearby Mercy Hospital Burn Unit in St. 
Louis, the director is quoted as saying that on any given day 
at least 15 to 25 percent of their burn unit beds are occupied 
by uninsured meth lab burn victims at a cost of over $6,000 per 
day.
    In June of 2002, well into my 26th consecutive hour of 
work, I made the mistake by opening a container that contained 
anhydrous ammonia, an ingredient in the manufacture of 
methamphetamine. This poisonous gas caused immediate burning to 
my eyes, nose, mouth, throat, and lungs, and later a blistering 
of my mouth and throat. I was eventually diagnosed with lung 
disease, where it was found that I lost 25 percent of my lung 
capacity.
    In the last 6 months, five of my six investigators have 
been hospitalized for cancer, kidney transplant, and unknown 
tumor growing in their chest because of methamphetamine 
laboratories that they have investigated.
    As I look back over a lengthy career, I know that 80 
percent or more of all crime revolves around drug and alcohol 
addiction. For this reason, the Franklin County Narcotics 
Enforcement Unit is built on the principles of prevention, 
enforcement, and rehabilitation. Our offices are home to three 
prevention specialists and seven narcotics investigators who 
are members of a local drug CORE team. At our facility, we host 
counseling service and pay for housing of participants in the 
drug CORE program.
    We have our own 501(c)(3) foundation helping to build a 
strong community coalition to prevent addiction before it 
starts. We understand that law enforcement, substance abuse 
prevention, and rehabilitation must work together in order to 
have a long-lasting effect on narcotics crimes and addiction.
    I know the growth of meth labs is a direct result of the 
decision made by the United States Food & Drug Administration 
in 1976, when the agency faced a decision as to whether or not 
pseudoephedrine hydrochloride should be an over-the-counter 
drug. By allowing pseudoephedrine to become OTC, I know the 
face of narcotics law enforcement in this country changed.
    Now what we are faced with more recently is a new black 
market of pseudoephedrine that has transformed this product 
from a commodity to currency. We commonly now see heroin 
addicts and those addicted to prescription pain relievers using 
boxes of cold tablets containing pseudoephedrine in trade for 
their narcotics of choice. A box of pseudoephedrine in Southern 
Illinois and St. Louis now sells for $100 a box.
    Criminals now go to the pharmacy not to receive beneficial 
medication but to exchange currency.
    In 2009, I began a campaign asking local cities and 
counties to enact ordinances requiring a prescription for 
pseudoephedrine. Washington, Missouri, enacted its ordinance on 
July of 2009. In the 90 days prior to the ordinance, five 
pharmacies in Washington sold 4,346 boxes of cold tablets. In 
the 90 days following the enactment of this ordinance, those 
same pharmacies saw a 94 percent drop in sales, and only sold 
268 boxes. Inspecting sales records at pharmacies surrounding 
Washington during the same time period saw no rise in sales 
after the implementation of the ordinance. This city also 
experienced an 85 percent decrease in meth-related calls for 
service by the police.
    Tracking databases, which track the sale of PSE in real 
time, do nothing to halt the spread of methamphetamine labs. 
Missouri in 2011 alone tracked 1.76 million sales. Missouri 
sells one box of pseudoephedrine every 17 seconds. The State 
experienced a 6.8 percent increase in meth labs between 2010 
and 2011. In the southeast portion of the State, where nearly 
70 cities now require a prescription for pseudoephedrine, we 
saw a 52 percent drop in methamphetamine labs. And I see I am 
out of time.
    [The prepared statement of Mr. Grellner follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Gowdy. Thank you, Mr. Grellner.
    Agent Dorsey.

             STATEMENT OF DONALD ``MAX'' DORSEY, II

    Mr. Dorsey. Chairman Gowdy, Ranking Member Davis, committee 
members.
    My name is Max Dorsey, and I serve as a lieutenant with the 
South Carolina Law Enforcement Division, commonly known as 
SLED. I am currently a supervisory special agent in the 
narcotics unit, and I am also my agency's clandestine 
laboratory coordinator, responsible for directing matters 
related to the enforcement of South Carolina's efforts to stop 
manufacturing of illegal narcotics. Thank you for the 
opportunity for me to participate in this committee today.
    South Carolina is experiencing a meth lab epidemic that is 
severely impacting law enforcement's resources and jeopardizing 
the welfare of our citizens. Despite both State and Federal 
efforts to prevent domestic methamphetamine production, meth 
labs in South Carolina continue to rise at an alarming rate.
    As you know, meth labs are very dangerous. Entering a meth 
lab site is one of the most dangerous acts a law enforcement 
officer can do. Yet as labs become more numerous in our State, 
we find more innocent people harmfully exposed. For example, in 
May of this year, a horrific fire occurred in the Pine Harbor 
apartment complex in Goose Creek, South Carolina, killing three 
people. The victims of this tragedy were 4-year-old Samuel 
Garbe, 19-year-old Morgan Abernathy, and 69-year-old retired 
Air Force captain and Vietnam veteran Joseph Raeth. These 
people did nothing wrong. They were victims of circumstance. 
Their circumstance was that they were in their apartment in 
close proximity to a meth lab.
    Although the manufacturing of meth cannot be exclusively 
proven to be the cause of the fire, it appears, based upon 
information present at the scene, that it most certainly may 
have contributed to the spread of the fire. During this 
manufacturing process, something went wrong and a fire ensued, 
causing the destruction of 16 units in the complex and the 
death of three innocent victims.
    Over the past decade, several States and Congress have 
passed legislation in an attempt to combat the meth lab 
epidemic. Most of this legislation has sought to control access 
to meth's main ingredient, ephedrine and pseudoephedrine, which 
are also the main ingredients in cold medicines.
    In 2005, Congress passed the Combat Methamphetamine 
Epidemic Act, which sought to limit daily purchases of 
ephedrine and pseudoephedrine-based products, thus restricting 
the amount of this necessary meth precursor chemical in the 
marketplace being diverted for the domestic manufacturing of 
methamphetamine.
    The pharmaceutical industry supports tracking precursor 
chemicals and brought forward a potential solution known as the 
NPLEx system. The intent of NPLEx was to better electronically 
track ephedrine and pseudoephedrine purchases through a central 
interlinking database.
    Despite the good intentions of NPLEx, it has not stopped 
domestic meth manufacturing in South Carolina. NPLEx is not 
limiting illicit purchases. In fact, in our first year of 
utilizing NPLEx, South Carolina actually saw an increase in 
discovered labs. Any legislation that seeks to merely lower the 
purchase limit or track purchases does not effectively combat 
domestic meth production. It is too easy for criminals to 
subvert the CMEA and NPLEx through the practice of smurfing. 
These criminals simply steal identities or use fake I.D.'s to 
make their purchases. Neither CMEA nor NPLEx has done anything 
to reduce the number of meth labs in South Carolina.
    In response to the growing meth crisis, Oregon and 
Mississippi passed new laws to prevent ephedrine and 
pseudoephedrine from entering the criminal marketplace by 
requiring a prescription to purchase ephedrine and 
pseudoephedrine-based products. The results of Oregon's and 
Mississippi's legislation have proven to be the most effective 
approach to combating domestic meth production within those 
States.
    If we are serious about combating domestic meth production, 
Congress must pass legislation returning ephedrine and 
pseudoephedrine to prescription only. We have seen the absolute 
success of this approach in Oregon and Mississippi, as meth 
manufacturing has plummeted in those States.
    President Ronald Reagan once said to sit back hoping that 
some day, some way, someone will make things right is to go on 
feeding the crocodile, hoping he will eat you last, but eat you 
he will.
    Committee members, the crocodile is alive and well and is 
preying not just on our criminal justice system but our 
environment, our health care system, our social welfare system, 
and our economy. The committee has an opportunity to put the 
crocodile back in its cage and stop the domestic meth lab 
production in this country by rescheduling ephedrine and 
pseudoephedrine.
    Thank you for your time, and I will be happy to answer any 
questions you may have of me.
    [The prepared statement of Mr. Dorsey follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Gowdy. Thank you, Agent Dorsey.
    Mr. Bovett.

                    STATEMENT OF ROB BOVETT

    Mr. Bovett. Chairman Gowdy, Ranking Member Davis, and 
members of the committee, my name is Rob Bovett. I am the 
district attorney for Lincoln County, Oregon, but I guess more 
importantly today, I am here as legal counsel for the Oregon 
Narcotics Enforcement Association. As such, I helped craft much 
of Oregon's drug policy and laws that addresses not just 
enforcement, but treatment and prevention.
    I am here today to talk specifically about pseudoephedrine 
control and effective pseudo control. I am not here to talk 
about reducing the meth epidemic. I am here to talk about 
reducing the domestic manufacture of meth. The truth is most 
meth comes from Mexico, and it has for a long, long time. We 
are talking about the impacts, the devastating impacts of meth 
labs.
    In 1976, we let the genie out of the bottle. We allowed 
pseudoephedrine to be sold over-the-counter. It was a mistake. 
It was a huge mistake. Ever since then, we have been putting 
Band-Aids on the situation for the last 35 years, both in State 
legislatures and in Congress. It hasn't worked. The Band-Aids 
have been temporary patches on what is effectively a gaping 
wound. And here we are again. Here we are again with the 
smurfing epidemic that is pervasive across our Nation. It does 
manifest itself differently in different parts of the Nation.
    In the Midwest and the South, all of the smurfing of 
pseudoephedrine fuels thousands, tens of thousands of these one 
pot user labs. In the West Coast, it is different. All of the 
smurfing fuels super labs in central California. California 
produces more meth in domestic meth labs than the next four 
States combined. So we have a slightly different problem in the 
West Coast than in the Midwest and the East and the South. But 
the problem all stems from the same core problem, smurfing, 
smurfing, smurfing of pseudoephedrine.
    In 2006--actually, in 2005 we passed legislation in Oregon 
to return pseudoephedrine to a prescription drug and end the 
smurfing problem. It went into effect in 2006. And we 
eliminated smurfing. It can't be done in Oregon. It can't be 
done in Mississippi. And I should say there was a parade of 
horribles ramped up, and it is still ramped up today about all 
the things that would happen. There would be public outcry, 
demonstrations. There would be home invasions. There would be 
robberies of pharmacies. There would be doctors' offices 
swamped with people.
    The truth is it has been over 6 years in Oregon, and none 
of that has happened. None of it. The truth is that we 
effectively eliminated the problem of smurfing in Oregon. We no 
longer contribute to the domestic meth lab problem. And there 
is no one clamoring to undo what we did over 6 years ago. It is 
a real solution to end the problem of smurfing, to correct a 
mistake that should never have been made 35 years ago.
    But only Congress can actually fix this nationwide because, 
yes, Oregon has a handful of meth labs remaining each year, but 
it is all traced back to pseudoephedrine smurfed, as the 
director mentioned, in Washington or Idaho or California; in 
one case, Nevada. So we truly need a nationwide solution to 
this nationwide-created problem from 1976.
    The truth is also that most consumers have long ago 
switched to alternative decongestants. When you enacted the 
Combat Meth Epidemic Act in 2006, in the spring of 2006, and it 
went into effect September of 2006, virtually by that time, 
most consumers had long switched to stuff that was easy to 
access. Hundreds of products line the shelves. We are not 
talking about those products. We are talking about 15 remaining 
pseudoephedrine products that are all behind the counter. And 
so we see massive smurfing going on in places other than Oregon 
and Mississippi.
    I will tell you, and I have provided you references in my 
written testimony, that our medical community overwhelmingly 
not only supports but strongly supports what we did in 2005 
that went into effect in 2006, including the Oregon Medical 
Association, our pharmacists, and our college of emergency 
physicians. Because it works. It not only works and it is 
effective, it didn't flood their offices with demands for these 
products that most consumers just simply don't seek. It is a 
real solution. I appreciate the time. We need to put this genie 
back in the bottle, and only Congress can do that. I look 
forward to your questions, and thank you very much for the 
time.
    [The prepared statement of Mr. Bovett follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Gowdy. Thank you, Mr. Bovett.
    Mr. Fisher.

                  STATEMENT OF MARSHALL FISHER

    Mr. Fisher. Mr. Chairman, Ranking Member Davis, committee 
members, on behalf of the State of Mississippi, we appreciate 
you having--I appreciate being here today.
    I am a 35-year veteran of law enforcement, been the 
director of Mississippi Bureau of Narcotics for the past 7 
years. Prior to that, I was a Special Agent with the Drug 
Enforcement Administration. My first undercover narcotics 
purchase as a street agent was methamphetamines. That was some 
time ago, when my hair wasn't gray.
    In 2005, Mississippi passed several new laws designed to 
curb methamphetamine production. One of them was limiting the 
amount to 3.5 grams on a daily basis and up to 9 grams in a 30-
day period. The other was to require a log to be signed by 
individuals purchasing the pseudoephedrine, wherein they would 
have to provide some form of identification. We saw an initial 
decline in labs about 18 months into those laws being passed. 
Then they began to steadily climb. In 2009, we recorded 713 
meth labs in the State; 129 children being taken away as what 
we call drug-endangered children being taken out of meth labs, 
many of whom had been physically and sexually abused. We had 
over 3,000 arrests from my agency alone that year, and one 
third of them were for narcotics for the first time--for 
methamphetamine. For the first time in the history of the State 
of Mississippi, they exceeded the combined total of crack and 
powder cocaine, those arrests.
    So we began to figure out what we were going to do as a 
solution. We looked at electronic tracking. You have already 
heard from some of the other witnesses here today about 
Kentucky. It was considered a gold standard State. I did a tour 
in Kentucky with the Drug Enforcement Administration; I had 
colleagues that were still there, still on the job, who told me 
it simply wasn't working. Their meth labs were increasing. I 
talked to a judge in the State of Mississippi who routinely 
removed children of drug addicted parents from the custody of 
those parents. And he told me in the entire time he has been on 
the bench, he has never removed one child from a meth-addicted 
parent where the parents come back to court to even bother to 
petition the court to get the child back. He also told me 
numerous anecdotal stories of children, preschoolers who had 
STDs passed to them, sometimes by their own parents, meth-
addicted parents.
    We came to the only viable solution that we thought would 
do this after some intensive study, and that was to make 
pseudoephedrine prescription only. We enacted the law in 2010. 
We have had 2 years to study it, to see the results of what has 
happened here--has happened and would happen in Mississippi. We 
had the same parade of horribles, including the cost of 
Medicaid going up. And I actually have a document with me from 
the director of Medicaid in Mississippi for the record if you 
would like it later, showing that there has been absolutely no 
effect on over-the-counters. There was a requirement for 
prescription for over-the-counters already anyway from the 
Medicaid department.
    We had 546 total meth incidents in the first two quarters 
of 2010. In the same two quarters of this year, we have had 
162. More importantly, in the first two quarters of 2010, from 
January through June, we had 252 actual methamphetamine labs. 
In the first two quarters of this year, we have had 17. 
Seventeen. That is a 93 percent reduction. And the only thing 
we have done different is schedule pseudoephedrine. The numbers 
speak for themselves.
    Our supporters of the prescription legislation wanted to 
adequately support law enforcement, protect our children, and 
preserve public safety. We like to say in Mississippi, there is 
no middle ground on meth labs; you are either for meth labs or 
you are against them. This is a self-created, self-inflicted 
epidemic that we can do something about here in the United 
States of America.
    We cannot control what the people in the Republic of Mexico 
do, and Afghanistan, and some of the other places, Colombia and 
Peru. We can control this. And it frees people up, 
investigators up to work on organizations who are actually 
bringing in methamphetamine, such as the Mexican cartels.
    Prescription-only legislation is not just the right choice; 
it is the only legitimate choice for this country. We would 
have money freed up for treatment of addicts. It would be 
astounding numbers.
    Most of the people with the one pot methods that we are 
seeing are addicts, 99 percent of them. One- to three-yield 
grams, one pot method. Most of these people are addicts. 
Putting an addict in prison is like painting your house when it 
is on fire. It is not a solution. Thank you for your time.
    [The prepared statement of Mr. Fisher follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Gowdy. Thank you, Mr. Fisher.
    The chair would now recognize the gentleman from Tennessee, 
Dr. DesJarlais.
    Mr. DesJarlais. Thank you, Mr. Chairman.
    And thank you all for your testimony, for being here today.
    I had a conversation this morning with Tommy Farmer, our 
great director of Tennessee's meth task force. And he mentioned 
several of you by name, so I assume you are friends. And we are 
very fortunate to have him.
    Let me start, Mr. Bovett, what kind of kickback have you 
gotten from the patient population in your State since this law 
has been enacted?
    Mr. Bovett. Congressman, the short answer and one-word 
answer is none.
    Mr. DesJarlais. Okay. So who is in the greatest opposition 
to Sudafed becoming a controlled substance?
    Mr. Bovett. Congressman, the pharmaceutical industry, and 
primarily, not directly the pharmaceutical industry, but 
primarily through their surrogates, various foundations and 
associations that virtually represent them.
    Mr. DesJarlais. Mr. Fisher, you concur with that?
    Mr. Fisher. Yes, sir.
    Mr. DesJarlais. Okay. You know, clearly the NPLEx system 
that we have in Tennessee, I think this panel is saying that it 
just simply is not effective; it is not working. Back when it 
was not in place, an individual could go out and buy 100 boxes. 
Now with smurfing, a 100 individuals go out and buy one box, 
and there just simply has not been any significant decrease in 
the number of labs. Is that correct?
    Mr. Grellner. Yes.
    Mr. DesJarlais. Okay. Mr. Fisher, or actually Mr. Bovett, I 
was just looking at some of the numbers. The surrounding States 
around Oregon, some people say it is just going to increase. It 
looks like to me the numbers in Washington, Idaho, California 
have dropped since your law has been passed. Is that just 
statistical noise or is there a reason for that?
    Mr. Bovett. Congressman, there is a reason for that. We saw 
a definite drop in meth labs across the Nation, including the 
Northwest and the West Coast following the Combat Meth Epidemic 
Act. But the resurgence in the West Coast is different than it 
is in your part of the Nation. The resurgence in the West Coast 
is a resurgence toward super labs in California. So there is 
massive amounts of smurfing going on in cities like Las Vegas 
and Reno and Phoenix and Seattle every day. But primarily, that 
fuels the super labs in California, as I mentioned. And so 
Nevada, for example, held a hearing on this very issue last 
year and is developing momentum to do this. They have just a 
handful of meth labs each year. And why would they do that? 
Because smurfing, as mentioned by the other speakers, smurfing 
has become an enormous problem in those States with the black 
market, with even heroin addicts being able to convert $5 to 
$50 or $100. So it has manifested itself slightly different in 
the last few years.
    I would also caution you about some of the numbers that the 
industry banters around. They tend to use a Federal database 
that is not exactly accurate. For example, Washington State 
doesn't accurately and fully report their meth lab incidents to 
the Federal Government. So there are issues relating to that as 
well.
    Mr. DesJarlais. Let me play devil's advocate just for a 
second. I would like to see what your opinions are. Would you 
all agree that prescription narcotic abuse is on the rise and 
becoming a huge problem? Okay. So here we have a situation 
where you have controlled substances, and it is increasing. I 
am sure if those drugs were over-the-counter, the problem would 
be astronomically higher. What would you say to critics that 
say those systems aren't working? If we make Sudafed a 
controlled substance, why do we think that will work when we 
already have tools in place?
    And--Mr. Grellner?
    Mr. Grellner. The main reason we have such a prescription 
drug abuse problem here in the United States is because of 
opiate pain relievers. And pain is subjective. A doctor such as 
yourself has to reply on his patient to tell him the amount of 
pain he is in and the quality of that pain.
    This is an objective problem. If you have inflammation in 
your sinus and ear canals, that can be objectively looked at by 
the doctor, and the proper medication can be administered by 
the doctor. They are two different subjects. Prescription drug 
abuse is a horrible problem, but it is opioid pain relievers at 
over 5 million abuses a year that is the problem with 
prescription drug abuse, not pseudoephedrine.
    Mr. Bovett. If I could just briefly add----
    Mr. DesJarlais. Mr. Bovett.
    Mr. Bovett. --from Oregon's actual over 6 years of 
experience, we do have, as I mentioned, a handful of meth labs 
incidents each year. We trace the pseudoephedrine to its 
source. And in over 6 years of actual experience, we have not 
had a single meth lab incident where the pseudoephedrine was 
prescribed pseudoephedrine. For all the reasons that Mr. 
Grellner has outlined, plus a few more, we just don't see that 
as a problem, and it hasn't occurred.
    Mr. DesJarlais. Mr. Grellner, you mentioned burn units.
    I just wanted to mention our largest burn unit in 
Tennessee, Vanderbilt University, right now fully one third of 
the burn patients there are meth-related burns. And I think our 
cost is about $10,000 a day.
    Mr. Grellner. Vanderbilt University burn unit in 2009 spent 
$9 million of their own money on uninsured meth lab burn 
victims.
    Mr. DesJarlais. Unfortunately, that light is red over 
there. I would love to visit with you more. But thank you.
    I yield back.
    Mr. Gowdy. I thank the gentleman from Tennessee.
    The chair would now recognize the gentleman from Illinois, 
Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Let me thank the gentlemen for your testimony. As a matter 
of fact, I was sitting here thinking that I have heard lots of 
testimony during the many years that I have been a member of 
legislative bodies, and yours is perhaps the most compelling 
that I have heard in terms of a very clear direction for what 
can become a real impact on--not totally eradicating but 
certainly putting a serious damper on a problem. If the 
information that we have gathered from the Oregon and 
Mississippi experiences, then it is difficult for me to think 
of any reason that we couldn't duplicate those experiences 
throughout the country.
    Let me ask, Mr. Brooks, as the national leader, have you 
heard much reason why we couldn't duplicate across the country 
the experiences of Mississippi and Oregon?
    Mr. Brooks. Well, I can tell you the primary reason has 
been the strong push by industry to oppose it. We tried to pass 
a very similar law in California, SB 486, where we received 
deep opposition, a very strong lobbying effort by industry to 
prevent that. They were successful. They derailed our bill. 
Other States and other local government entities, counties and 
cities that have tried to schedule pseudoephedrine have had the 
same experience.
    So we really think that the answer here is a national law. 
We think that the evidence, as you say, sir, is very clear. 
This works. It is not a hypothesis. It is a proven fact. But we 
have got to overcome the push, the push by industry. This is a 
multibillion dollar industry. The over-the-counter 
pseudoephedrine industry is a multi--there is a lot at stake. 
And I think we have to collectively as a Nation have the 
courage to step up and do what is right for our kids and our 
communities.
    Mr. Davis. Well, even, I was trying to rationalize why 
industry--of course, you could see some concern. But then if 
the products are so good, physicians are going to be 
prescribing them anyway to a real degree, I would assume.
    Dr. DesJarlais, would that not be the----
    Mr. DesJarlais. If the gentleman would yield, as far as 
Sudafed being so good, phenylephrine is also good. It is being 
dosed in lower milligrams than it could be or that it is in 
other countries. Sudafed also brings a lot of worries for our 
diabetic hypertension patients and clearly children. So I think 
there are viable alternatives.
    Mr. Davis. Yeah. But even so, it probably would still be 
receiving a great deal of consideration on the part of people 
who need it to make use of it.
    And I guess for me, the good that it would do certainly 
outweighs whatever disadvantage it might cause. I mean, I for 
one would be prepared to support at this moment national 
legislation to--if we can reduce the number of labs that are 
being created, if we can prevent the kind of accidents that are 
occurring and taking place, and then the ultimate impact on the 
lives of the individuals who become addicted, then it seems to 
me that it is as clear as day that we need to move in the 
direction that you have suggested. And no matter what the 
opposition might be, you would certainly have one vote in the 
House of Representatives in favor. I thank you for your 
testimony.
    And Mr. Chairman, I yield back.
    Mr. Gowdy. I thank the gentleman from Illinois. The chair 
would now recognize himself for 5 minutes of questions.
    I want to preface it by saying I want to play the devil's 
advocate, just because somebody is going to ask the questions, 
and we got to be prepared for it.
    I will start with Mr. District Attorney, you had wonderful 
success in Oregon. The gentleman from Mississippi has outlined 
wonderful success. You had no blowback from physicians, which 
is unusual, none from patients. Why have the 48 other States 
not followed suit?
    Mr. Bovett. I think this is in part, Mr. Chairman, alluded 
to earlier, the industry. The industry is very successful in 
lobbying and preventing this legislation from moving forward.
    Mr. Gowdy. What argument do they use that is most 
compelling with State legislators in the face of the 
overwhelming evidence you and others outlined to the contrary?
    Mr. Bovett. Mr. Chairman, I think Kentucky is the perfect 
example, where they have had the electronic tracking system in 
place for the longest period of time, and it simply failed to 
deliver the promise to reduce meth labs or smurfing. It is an 
investigative tool, and that is all it is.
    So the argument they make is one of patient access. The 
arguments they make are the parade of horribles that have been 
mentioned. All these bad things are going to happen. And in 
Kentucky, they actually set a new record, the State record for 
the amount spent on lobbying. And that doesn't even include 
their public campaign in terms of advertising. Massive amounts 
of money they spent to kill the bill in Kentucky this year. We 
simply can't compete with that.
    Mr. Gowdy. Special Agent Dorsey, I want to lay aside 
OxyContin, Lortab, the pain treatments because I understand the 
point that Mr. Grellner and the district attorney made. But we 
have also prosecuted Phentermine and Fenfluramine, which are 
diet pills, that were entire cottage industries and still are 
around bariatric medicine for weight loss. What is to say that 
we won't have those same mills crop up when it comes to runny 
noses and sniffling, and instead of this panel of experts, we 
will have DEA diversion experts saying we need more help going 
after doctors who are essentially prescription mills?
    Mr. Dorsey. Mr. Congressman, as you well know, drug addicts 
are quite creative. And there are opportunities and ways that 
they will go out there, and they will come up with techniques 
that will surprise you and I. But here is an opportunity to--it 
is an inconvenience. It will be an inconvenience. But what I 
would point to you is in my State alone, since NPLEx has been 
going on since January 1 of 2011, from the numbers we have been 
able to show, only approximately 15 percent of South 
Carolinians are buying this stuff, which surprised me.
    Mr. Gowdy. Have you seen prosecutors who are willing to 
roll up smurfs in Title 21 conspiracies or whatever the State 
equivalent is in South Carolina?
    Mr. Dorsey. I can't speak to the Federal side. I am aware 
of a State grand jury case in South Carolina that did that. The 
problem is that hole that you create from sending those people 
to prison fills up so fast. And so that is just not a practical 
solution, the prosecution of these people. Because again, for 
every person you put in prison, you are going to have 10 more 
to replace them.
    Mr. Gowdy. I think they call it the hydra effect. All 
right.
    I am going to do what I love do with law enforcement 
officers, which is talk philosophy. From a philosophical 
standpoint, the public is tired of having its behavior changed 
because a certain percentage of people just will not, cannot 
comply with the law. I doubt you all have worked very many or 
prosecuted very many arson cases that did not involve an 
accelerant, but there has been no discussion of scheduling 
gasoline or kerosene. You have never worked a bank robbery case 
where there was a demand note and anyone advocated that we do 
away with papers and pens. Or a stabbing that didn't involve a 
sharp edge. And I understand that these are somewhat absurd 
examples.
    But nonetheless, there is a frustration within the public 
that it is always us that is inconvenienced because of the 
criminal element, while the criminal element, to your point, 
Agent Dorsey, is just going to find another way around it. So 
how do you strike the balance between--and you have convinced 
me. I was convinced before I got here; it is an epidemic. All 
the things that you all have said about methamphetamine times 
10 are true. But how do you strike the balance with the law-
abiding public versus the criminal element when it comes to 
placing barriers? And whoever has read Kant most recently can 
take a stab at it.
    Mr. Grellner. Can I stake a stab at it for you?
    Mr. Gowdy. Yes, sir.
    Mr. Grellner. We are not inconveniencing a large amount of 
society. It is being inconvenienced already by the meth labs. A 
Rand study in 2007 said United States taxpayers in 2005, on the 
low end, spent $23.4 billion on the meth lab problem in the 
United States. We are all being impacted by it already.
    When I look at the sales of pseudoephedrine in Oregon, a 
State of 3.9 million Americans, they are selling about 9,700 
boxes of pseudoephedrine a month by prescription. When you come 
to the great State of Missouri and look at the tracking system, 
a State of 6 million people, that would mean we should sell 
about 15,000 boxes a month. We are selling between 120,000 and 
165,000 boxes a month; 90 percent of these sales go directly 
diverted to methamphetamine laboratories. They are not being 
used. They are a commodity. When we have individuals standing 
on parking lots of pharmacies paying people $20 to go inside 
and buy pseudoephedrine to bring back outside so they can sell 
it to a meth lab for $100, it is not a commodity any more, sir, 
it is a currency.
    Mr. Gowdy. All right. Last question because my time is up, 
and I know none of you are old enough to have been around in 
1976 when the decision was made to take it from prescription to 
OTC.
    Mr. Brooks. I was.
    Mr. Gowdy. Probably. By the looks, none of you were around. 
What was the argument made in 1976 of why we need to take this 
from prescription to OTC?
    Mr. Bovett. If I can answer that, Mr. Chairman.
    Mr. Gowdy. Sure.
    Mr. Bovett. I have done an extensive study on the history 
of this, wrote a law review article about it, spent a lot of 
time on this.
    This actually began in 1962 with a mandate from Congress to 
the FDA to study a broad spectrum of drugs to decide which 
drugs should be allowed to be sold over the counter as a 
modernization effort. It took them basically 14 years to get 
the monograph established for OTC cold and allergy medicines. 
And so they went through an analysis of what was safe and 
effective for use. And the primary problem with that analysis 
is it looked at the drug itself for its intended purpose. It 
didn't look at the drug for its illicit purpose. So while the 
DEA and some at the DEA said, hey, we don't think you ought do 
this, they were looking just at the confines of the drug 
itself. Is it safe and effective?
    Now, I actually have arguments--I would love to talk with 
the good doctor at some point--about why this drug should never 
have been moved from the schedule to OTC to begin with based 
upon its pharmacology, but that is a separate argument. I think 
that is the answer to your question.
    Mr. Gowdy. With that, I will recognize the gentleman from 
Missouri, Mr. Clay.
    Mr. Clay. Thank you, Chairman Gowdy.
    And you know, the problem of meth in my State of Missouri 
is very troubling. In fact, Jefferson County, which is close to 
my district, has had by far the largest number of meth labs in 
the State. The meth problem is so pervasive that some people 
call it Metherson County.
    Detective Sergeant Grellner, in Missouri meth is a 
formidable foe. And I appreciate your efforts to eradicate this 
menace from our State. And as president of the Missouri 
Narcotics Officers and as a narcotics unit commander, I know 
you have had specialized training. Could you detail for us 
training for law enforcement, the equipment necessary to 
uncover the clandestine meth labs and interact with children on 
the scene and handle those combustible products?
    Mr. Grellner. Yes, sir. Thank you. First off, it takes four 
officers to do a methamphetamine laboratory and specialized 
training. It takes 48 hours of specialized training given to us 
by the DEA. So it takes them out of my office for a week to 2 
weeks in Washington, D.C., at the DEA training academy. Once 
they come back to me, then we have to buy suits that cost up to 
$500 per suit to wear on the scene with the new flame retardant 
properties that they have. Special air-purifying respirators 
are necessary, as well as self-contained breathing apparatus 
and specialized air-monitoring units. Sitting on my parking lot 
right now is a $250,000 vehicle that we take to methamphetamine 
laboratory sites to fight meth labs. That money could have been 
better spent in the Department of Corrections working on the 
rehabilitation of individuals that are addicted to different 
drugs.
    On top of that, when those four officers go out to the 
scene, they are photographed by the press and the media, and 
they can no longer work undercover on problems such as 
prescription drug abuse and heroin and cocaine. They spend 
several hours on the scene. Then they must transfer hats and 
become a hazardous waste company and clean up the hazardous 
waste that is left behind. They have to transport that to 
specialized buildings throughout the State of Missouri, where 
they must store the hazardous waste, categorize the hazardous 
waste and make it for pick up by the EPA. Then they have to 
write their reports and testify in court. Oklahoma did a study 
in their State that said one meth lab with conviction cost 
their State $350,000 per conviction.
    Mr. Clay. That really strains law enforcement budgets 
throughout the country, I am sure. Over 45 cities and towns in 
Missouri require consumers to have a doctor's prescription to 
buy any form of pseudoephedrine. This applies to about 400 
pharmacies and businesses. How effective have the local 
ordinances been in halting the sale of ephedrine or 
pseudoephedrine within the local communities?
    Mr. Grellner. First, I am happy to report that that number 
has gone from 45 communities to 71. Almost 600 pharmacies now 
require a prescription in the State of Missouri. The State of 
Missouri also has a tracking system, fully implemented and been 
online since January 1, 2011. The State of Missouri realized a 
6.8 percent increase in meth labs in 2011. However, the area in 
southeast Missouri bordering Kentucky and Tennessee, two other 
high States for meth labs, where most of these cities are 
located, saw a 52 percent drop in meth labs in their area in 1 
year's time. And sales of pseudoephedrine are down from 165,000 
boxes to 120,000 boxes in June of this year.
    And when I have gone for the last 3 years to over 200 city 
and county council meetings, the question that I am asked by 
every committee, have you told this to the State government and 
have you told this to the Federal Government? Why haven't they 
taken care of the problem? Why do we at the city and county 
level have to take care of a problem that is a national 
problem?
    Mr. Clay. Mr. Brooks or anyone else on the panel, can you 
discuss the increase of meth use in urban and suburban areas?
    Mr. Brooks. Well, I think, you know, certainly we are 
seeing, and you have heard testimony on dramatic increases of 
meth use and meth labs. I think the problem we are dealing with 
here is really that domestic meth lab production problem. 
Because we are going to continue to get meth brought in from 
other source countries.
    You know, so clearly the issue here is not as much about 
use, although it certainly is, it is more about reducing that 
dangerous toxic problem in our communities. Children in meth 
labs, toxic waste dumping into our waterways and into our 
communities, dangerous to first responders, police officers and 
other first responders that you heard Sergeant Grellner 
describe. I personally have held the hand of two friends as 
they died from cancer that were police officers that had worked 
in meth labs. And I have had countless other friends that are 
suffering from that. The impact on our community budgets.
    And I will tell you the other thing, sir, the thing that is 
really tough right now, these are labor-intensive 
investigations. In California, we have had such dramatic cuts 
in budgets, we have now at least a 70 percent reduction in law 
enforcement resources to work drug crimes. Seventy percent 
fewer cops to work these drug crimes. And so when we start to 
see some reductions, I think part of why we see reductions is 
because we don't have anybody out there looking; we don't have 
anybody out there able to work these crimes. And California is 
not the only State in the Union that is cash strapped.
    Clearly, if we are going to have an impact on environmental 
impact, on the drug-endangered children problem, on the danger 
to cops and firefighters, we are going to need to control 
pseudoephedrine.
    Mr. Clay. Thank you.
    Mr. Gowdy. Thank the gentleman from Missouri.
    With your indulgence, because we do have such a wonderful 
panel of witnesses, and this is such an important issue, if 
your time allows, we are going to perhaps go to what we call a 
second round or a lightning round. I will do my best to reduce 
the time to 3 minutes that we have from 5.
    Are you all amenable to that? Will your schedules allow?
    With that, I would recognize the doctor from Tennessee, Dr. 
DesJarlais.
    Mr. DesJarlais. Thank you, Mr. Chairman.
    And I think, as my good friend Chairman Gowdy said, we need 
to take advantage of the witnesses we have before us. Let's 
assume that what we have been talking about today happens, and 
we do pass a law that allows that this become a prescription or 
controlled substance. That is going to turn the attention back 
to the physicians, the prescribers, and the law enforcement. We 
were at a meth summit in Crossville, Tennessee, and had over 
100 law enforcement agents. And I found it interesting that I 
quickly removed my congressional hat and put on my physician 
hat, because I felt there was a great disconnect between law 
enforcement and physicians. And we were talking more about 
narcotic drug abuse. But do you find that there is maybe poor 
communication between law enforcement and physicians? And if 
so, what can we do to improve that?
    Mr. Fisher. If you don't mind, I will take that one. In our 
effort to schedule pseudoephedrine in Mississippi, I approached 
the Mississippi State Medical Association, the Board of 
Pharmacy, the Nursing Board, Board of Health. The Medical 
Association got on board with us. And now with the prescription 
drug abuse issue, we have the prescription drug monitoring 
program in Mississippi. And we are having a difficult time 
getting physicians to buy in to use the PDNP, if you will. Most 
of the States have it; some of them are in various forms. But 
one of the things that was useful with us with respect to 
scheduling pseudoephedrine is we have got a population of 
roughly 3 million, give or take a few there. There are 
somewhere north of between 500,000 and 550,000 prescriptions 
written on a monthly basis. Two-and-a-half to 3 percent at the 
highest is what we have seen with Sudafed prescriptions, and 
that is at the height of the cold and flu season. But what I 
have encouraged other law enforcement counterparts to do across 
the country is to establish those relationships with the 
medical community.
    Mr. DesJarlais. I would just say we have an opportunity. 
Right now in Congress, we have a large number of physicians; we 
have a Physician Caucus with 20 members, over 600 years 
experience. And I can speak I think for 95-plus percent of 
physicians; there are bad apples in every profession, and you 
all know who they are. And through pain management clinics, 
there have been ways to skirt the rules and look legal even 
though we all know pill mills are out there. But I would 
encourage meetings with our caucus and ways to open those 
channels of communication. Because I can guarantee you 
physicians don't want to have to treat meth patients. They 
don't want to see these burn labs. And I think because of 
regulations, whether it is HIPAA or other compliance issues, 
there is some paranoia among physicians about what their rights 
are in terms of reporting patients and using these databases. 
So that was the one thing we established that I think we are 
on--I know we are on the same team, the vast majority of us. 
And we need to find a better way to deal with this.
    Mr. Bovett. If I could add just briefly, Congressman, I 
would echo all of your sentiments and Marshall Fisher's as 
well. What happened in 2005 in Oregon is our physician 
community, our dental community, our nurses, our pharmacists 
were all part of the solution. And actually, they were some of 
the champions for it. What that has done is it has paid off in 
dividends subsequent to that because we now have--we didn't 
before have a working relationship or dialogue about things 
like prescription drug abuse, which we never had before. So, 
actually, we kind of came together to deal with meth labs. And 
we came away from that with friends and partnerships.
    Mr. DesJarlais. Okay. I see my time has once again expired.
    Thank you, Mr. Chairman.
    Mr. Gowdy. It goes so quickly, doesn't it? Thank the 
gentleman from Tennessee.
    We now recognize the gentleman from Illinois, Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman.
    I guess my one question would be, how do we increase the 
collaboration between all of the components? As we have had 
this fight against proliferation of drug use, both prescription 
drugs, yes, there are people who abuse them, and abuse them 
greatly, but then it is the illegal drugs that we see that have 
taken such a drastic toll on our society as a whole. I come 
from an environment where our county jail can't keep the people 
who are picked up. Actually, we have more than 10,000 people. I 
think we have the largest county jail system and the largest 
unified court system in the country. And we are spending 
enormous amounts of money. How do we increase this 
collaboration between all components of the community to reduce 
our reliance upon drugs?
    Mr. Bovett. Congressman, very briefly, I can only speak 
from the Oregon experience, I saw that dramatic change occur in 
2004 in Oregon because everybody was operating in their own 
silos. And what happened was our Governor had the foresight and 
wisdom to put us all in the same room. So he called together 
prevention, and treatment, and enforcement, and most 
importantly, the recovery community, and he said, come up with 
real solutions. And once we started working with each other and 
talking to each other, the amount we could accomplish together 
was phenomenally greater than the individual silos.
    Mr. Grellner. Speaking from my task force, we are the first 
task force I know of in the country that in its own building 
incorporates prevention, enforcement, and rehabilitation. We 
understand to have that impact, you have to have all three 
working together. We hold NA and AA meetings at our building. 
We provide housing for the drug court participants. We provide 
training for the drug court participants. And we also allow 
training for prevention programs in the high schools and junior 
highs. You have to bring those three together like a three-
legged stool.
    Mr. Davis. I thank you very much.
    Mr. DesJarlais. Would the gentleman yield?
    Mr. Davis. Yes.
    Mr. DesJarlais. Not to down downplay the impact of the 
illegal drugs, but I know someone on the panel wanted to say 
it. The rate of overdose from drugs is higher with controlled 
substances, prescription drugs, than it is illegal drugs. Is 
that the case?
    Mr. Bovett. Yes.
    Mr. Grellner. Yes.
    Mr. DesJarlais. Just to be aware of how severe that problem 
is.
    Mr. Davis. Well, I appreciate your understanding of the 
entire system, and especially the whole question of recovery. I 
do something once a year called a recovery walk. And I usually 
have 300, 400 recovering individuals who might walk 2 or 3 
miles, or whatever we decide. And I think the understanding 
that comprehensively is the only approach that really will work 
to reduce the dependence upon external substances. So I 
appreciate your testimony.
    Mr. Gowdy. I thank the gentleman from Illinois.
    I am going to continue with my trend of anticipating the 
defense argument.
    There is a bill pending in Congress right now, Mr. District 
Attorney, dealing with copper theft, which is also an epidemic. 
And at first blush, you want to sign on to it because it is a 
horrible problem in South Carolina. I assume it is in other 
places, too. People disabling air conditioning, construction 
sites. But then you stop and think, well, if somebody goes to a 
neighborhood in Greenville or Spartanburg, South Carolina, and 
cuts the copper from an air conditioning units and then takes 
it to a scrap metal dealer, where is the interstate nexus? You 
saw the Supreme Court in Lopez, despite the fact that we don't 
want guns on schools, say that the Gun-Free School Zone Act was 
unconstitutional because there wasn't sufficient interstate 
nexus. You saw with Morrison, we all live with domestic 
violence, which is a horrific epidemic nationwide, and 
certainly in South Carolina. And in Morrison the Supreme Court 
struck down Congress' efforts to fix that, saying that it was 
not sufficiently nexused with interstate commerce. I understand 
the schedules are already Federal. If Congress passed something 
and gave the States an opt out, how many States would opt out? 
How many States are you having trouble not just persuading them 
that there is a problem, but how many States would 
affirmatively opt out if there were a Federal solution?
    Mr. Bovett. Mr. Chair, I am not exactly sure. I believe 
this is a Federal matter. It long has been a Federal matter. 
The schedules are controlled federally. So I think there 
frankly shouldn't be an opt out. Because the minute you have an 
opt out, you create a hole, you create a hole that basically 
bleeds out through the neighboring States. Because the 
pseudoephedrine in my State that is used to make the meth labs 
happen is from Washington, Idaho, and California. I don't want 
Washington opting out and electing to essentially subject me to 
what should be their meth labs. It doesn't make sense as a 
national policy to do an opt out.
    I do understand your concern with the case law and the 
trends we have been moving forward. I think, again, looking at 
Oregon, back to your scrap metal example, we struggled for 
years mightily with that issue, until they finally got tired of 
it, and they came to me and I crafted up some legislation that 
so far has been working. But it wasn't something that I could 
have got done in 2000. We had to go through about 10 years of 
trauma before we got to people willing to actually implement a 
real solution. And we have gone through 35 years of trauma when 
it comes to pseudoephedrine. It is past time to actually 
implement a real solution.
    Mr. Gowdy. All right. Last question.
    Our culture prefers prison; other cultures prefer other 
means of corrective measure. Have you ever made an effort to 
publicize the stores that are selling a disproportionate amount 
of ephedrine or pseudoephedrine, or name the pharmaceutical 
companies that are uncooperative?
    Mr. Grellner. Yes, sir. I look at the--I pore over the 
files that come in from the database every month, and I post 
the top 30 stores in our State that are selling 
pseudoephedrine, which happen to be in the top 10 counties for 
meth labs. Right now, one corporation, one large chain store 
owns nine of the highest selling stores in the State out of the 
top 10. They own 17 out of the top 20. And they continue to 
sell. They sell cold packs that are used to manufacture meth in 
one pot bottles. They are an eight-pack box now, an eight-pack 
box of instant cold packs. And now can you buy one for $9.99 
and get another one at 50 percent off. Who needs 16 instant 
cold packs? Someone who manufactures methamphetamine.
    Mr. Gowdy. So if you were testifying at trial and I asked 
you in front of the jury whether or not you had exhausted every 
other means of combating this epidemic shy of scheduling 
ephedrine and pseudoephedrine, your answer would be?
    Mr. Grellner. Yes, sir. I have worked on this problem and 
worked on legislation since 1999 and have been pushed back by 
industry every year with a solution that does not work. And I 
am baffled why legislators, when listening to officers on the 
street, don't believe us.
    Mr. Gowdy. The chair would now recognize the gentleman from 
Missouri, Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman.
    And Detective Grellner, along those same lines of 
questioning, what has been the response of the large retailers 
when you have brought the issue to them and had strong evidence 
that they were supplying this chain of meth manufacturing?
    Mr. Grellner. I liken it to if a constituent called in and 
said that there was a man on the corner in your area selling 90 
percent of the heroin in your area, you would expect law 
enforcement to go to that corner, immediately stop that man 
from doing that, incarcerate him, rehabilitate him, and take 
care of the problem. Our street corners in Missouri, especially 
in the St. Louis metropolitan area, are lined with big box 
pharmacy stores that are selling 90 percent of their 
pseudoephedrine diverted to methamphetamine laboratories hiding 
behind FDA rulings, their attorneys, and their lobbying 
efforts.
    Mr. Clay. Let me ask Mr. Bovett, I have a letter here from 
my local chapter of the NAACP. Let me share with you what they 
highlight: It is our firm belief that efforts to combat meth 
production should be focused on legislative solutions that 
target criminals, not law-abiding citizens. In the past, some 
lawmakers have advocated for a mandate that would force all 
consumers to obtain a doctor's prescription before buying 
common cold and allergy medicines containing pseudoephedrine 
because some criminals misuse those medicines to make meth. We 
strongly oppose that approach. It would raise costs for 
thousands of St. Louis residents. Not only would a prescription 
requirement lead to additional copays and fuel costs, it would 
also result in lost wages for workers who are forced to take 
time off from work to visit a doctor.
    What would be your response to the St. Louis chapter of the 
NAACP?
    Mr. Bovett. Congressman, I would say that I am a little bit 
surprised at that approach. I think they need to maybe do a 
little more research, find out what the real implications of 
doing this are. That sounds more like the pharmaceutical 
industry's parade of horribles. I would also encourage them to 
check with the California chapter of the NAACP, which actually 
testified literally right next to me in favor of Senate Bill 
484 in California, which Mr. Brooks mentioned, saying that 
prevention is the correct approach, not arrest and 
incarceration.
    And what we have before you here today is a pure prevention 
solution to the meth lab problem, because frankly, law 
enforcement does not want to track down, arrest, and 
incarcerate more smurfers and meth cooks. It is an endless 
supply. We want to actually prevent the problem.
    So I would encourage your chapter of the NAACP to contact 
us, maybe do a little further research. I think they will 
realize what we are proposing is a prevention solution, and 
just the opposite of the criminalization approach that they are 
proposing.
    Mr. Clay. Thank you for that response.
    Mr. Gowdy. I thank the gentleman from Missouri.
    Again, on behalf of all of us, we cannot thank you enough 
for your time, for loaning us your expertise. I think you have 
convinced everyone, if they didn't already know that it is an 
epidemic, and we value your perspective, or at least I do very 
much.
    So, with that, our committee would stand adjourned.
    [The information follows:]
    [Whereupon, at 11:29 a.m., the subcommittee was adjourned.]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
